                                                                                                              t
                                                    NATIONAL SCIENCE FOUNDATION
                                                '    OFFICE OF INSPECTOR GENERAL-
                                                      OFFICE OF MVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-01-02-0002                                                                   Page 1 of 1
I


         On 14DEC00, the Ofice of Inspector General (OIG) received correspondence, dated 0 1DEC00,
         from the Office of Research Services at the                                tifying the OIG
         that an internal audit of the activities f b d e                         ed funds returned
    - y b                                                    in the amount of $22,453.65. These funds were
        represented by a                 s fees collected fiom conference participants that were unknown
        and unreported to the University. According to NSF guidelines, this revenue should have been
        collected through the University's accounting system and treated as program income. T h e m
        further claimed that these charges were "outside the grant itself' and the $182,760 in grant h d s
        were "fully spent."

        On 23JULO1, an OIG Investigative Financial Review determined that the $124,955 of claimed costs
        reported by                                          in connection with the Conference constituted
        program income. ~ h e c o n c m e and      d agreed that expenditures from those funds should be
        treated as allowable only to the eitent that they would have been allowable &xn direct grant fiods.
         The          deposited $50'5 19.03, along with $650 of registration fees from          conference
        attendees, into an account fiom which the expenditures were made. Of the $51,169.03 in program
        income, $4 1,198.77 remained.

         On 24SEP0 1, th-concurred         with the findings of the OIG Investigative Financial Review and
         agreed to reimbursed NSF the $4 1,198.77 fiom those funds that were unallowable in addition to the
         $22,453.65 unreported conference fees that should have been reported as program income.
